       Retail and Delivery: Decoupling Could
         Improve Service and Lower Costs




                           September 22, 2011




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-11-009
U.S. Postal Service Office of Inspector General                                               September 22, 2011
Decoupling Could Improve Service and Lower Costs                                                RARC-WP-11-009



                     Retail and Delivery: Decoupling Could
                       Improve Service and Lower Costs


                                         Executive Summary

The U.S. Postal Service’s (Postal Service) retail and delivery operations have been
“coupled” both organizationally and physically since delivery services were first
established almost 150 years ago. The location of these facilities, housing both delivery
and retail, was primarily determined based on historical patterns or the need for delivery
service efficiencies — with retail performance typically being a secondary consideration.
However, there have been dramatic shifts in the marketplace and the Postal Service
could benefit by reexamining such long standing practices with the opportunity to
improve service, raise revenue, and lower costs. The purpose of this paper is to
strategically examine the concept of “decoupling” delivery from retail, thereby breaking a
long-standing organizational tradition. Such decoupling could be physical, managerial,
or both.

In this study, we draw upon the experiences and insights of key stakeholders in the
postal community, private sector delivery companies in the United States, and foreign
postal operators to gauge potential consequences and outcomes.1 In short, we found
that while the Postal Service has made some steps in this direction, a much broader
and more strategic implementation of decoupling could add value to the Postal Service
by lowering costs and improving service to the American people. We believe that
carefully decoupling retail and delivery both physically and managerially primarily in
urban and suburban areas would have the most practical benefit. These changes could
provide improved customer service for existing products and better options to the Postal
Service for reconfiguring both its delivery and retail networks and offering retail products
and services that can best respond to changing market conditions and diverse customer
needs across the country.

Key Strategic Findings

1) The Postal Service could benefit by partially decoupling its retail network from its
   delivery network with potential cost, revenue, and customer service improvements.
   In brief, both delivery and retail functions could potentially be better off with
   decoupling.

2) Customer postal retail access needs are quickly changing and they vary greatly by
   geographic location and demographics. A decoupling strategy affords the Postal
   Service more flexibility to respond to changing customer needs for retail service.

1
 This research also benefited from the input of both NGI-Solutions and the many people we spoke with at the Postal
Service.


                                                         i
U.S. Postal Service Office of Inspector General                           September 22, 2011
Decoupling Could Improve Service and Lower Costs                            RARC-WP-11-009


3) Recent mail volume declines, changes in mail processing technology, and changing
   delivery operations have reduced the space needed in delivery offices. This provides
   significant opportunities for space consolidation savings.

4) Retail is too often ignored, receiving secondary managerial attention when
   competing with delivery for time and resources. Decoupling could help transform
   retail into a growth and best-practices driven, strategic business unit.

5) Despite the long history of coupling, the operational needs between retail and
   delivery are actually few, relatively minor, and can be overcome. The key need that
   does exist — shared clerk work hours — could better be addressed with a
   reasonable increase in work hour flexibility.

6) In general, consumers and business mailers express little concern regarding the
   decoupling of retail and delivery. This is likely to be the case as long as the changes
   do not negatively affect the services provided or increase their costs.

7) In the last 20 years, managerial and physical separation of delivery from retail has
   become common practice at the major foreign posts. The delivery and retail offices
   are often operated by two completely separate groups of people with distinct skills,
   training, and performance measures.

8) Major private sector delivery companies in the United States, such as United Parcel
   Service (UPS) and Federal Express (FedEx), have separated retail and delivery
   operations to optimize the benefit of both functions.

9) To gain full value from separating retail and delivery, the Postal Service needs to
   make that separation a part of its strategic vision. Drawing on successful
   experiences of foreign posts, this strategic vision must consider the perspectives
   and insights of customer, employee, and public policy stakeholders.

10) There is a compelling case for the Postal Service to decouple retail from delivery as
    a business strategy. Delivery and retail operations each have important contributions
    to make to the Postal Service’s long-term viability and financial health. Developing
    an integrated strategy that maximizes the potential value of both functions has the
    potential to be extremely beneficial to the Postal Service and its customers.




                                                   ii
U.S. Postal Service Office of Inspector General                                                              September 22, 2011
Decoupling Could Improve Service and Lower Costs                                                               RARC-WP-11-009




                                                 Table of Contents

Introduction ..................................................................................................................... 1 

History of Retail and Delivery Operations........................................................................ 1 
          The Current Postal Service Delivery and Retail Network Is
          Expansive ............................................................................................................. 2 
          Delivery and Retail Interdependencies Are Unnecessary in the
          Long Term ............................................................................................................ 4 
          In Shared Facilities, Focus Is on Delivery Operations, Not Retail......................... 4 

A Changing Environment Enhances the Case for Decoupling ........................................ 5 
          Investment in Mail Processing Automation Has Decreased the
          Need for Delivery Floor Space and Reduced the Need for
          Delivery Carriers in Each Office............................................................................ 5 
          Retail Sales in Post Offices Are Falling and Demand Is
          Changing Between Facilities ................................................................................ 6 
          Status Quo Is Functional But May Result in Poorer Service and
          Higher Costs ......................................................................................................... 6 

Decoupling Offers Benefits and Challenges .................................................................... 6 

Private Sector Shippers Offer Valuable Insights ............................................................. 8 
          Retail Facilities Are Located Close to Customers and Focus on
          Service ................................................................................................................. 8 
          Delivery Facilities Are Located in Low-cost, Industrial Areas with
          Easy Access to Transportation Links and Focus on Efficiency ............................. 8 

International Posts Also Offer Many Valuable Insights .................................................... 9 
          The Canadian Example May Be Most Relevant to the Postal
          Service ............................................................................................................... 10 

Decoupling Value and Implementation .......................................................................... 11 
          Implementation Strategy for Decoupling Delivery and Retail
          Operations .......................................................................................................... 11 
          Decoupling Enables Expanded Retail Products and Services ............................ 12 

Conclusions and Suggestions ....................................................................................... 13 




                                                                 iii
U.S. Postal Service Office of Inspector General                                                  September 22, 2011
Decoupling Could Improve Service and Lower Costs                                                   RARC-WP-11-009


                                                   Tables

Table 1           Delivery Operations ............................................................................... 3 

Table 2           Benefits and Challenges of Decoupling ................................................. 7 

Table 3           Retail Products and Services of Foreign Posts and Private
                  Sector Shippers ................................................................................... 12 


                                                  Figures

Figure 1          Retail and Delivery versus Retail-Only Facilities ................................... 3 


                                              Appendices

Appendix A        Case Study 1: Deutsche Post (Germany) ............................................ 15 

Appendix B        Case Study 2: Svenska Posten (Sweden) ........................................... 16 

Appendix C        Case Study 3: Canada Post (Canada) ................................................ 17 

Appendix D        Case Study 4: Australia Post (Australia) .............................................. 18 




                                                        iv
U.S. Postal Service Office of Inspector General                            September 22, 2011
Decoupling Could Improve Service and Lower Costs                             RARC-WP-11-009




                   Retail and Delivery: Decoupling Could
                     Improve Service and Lower Costs

Introduction
The Internet and the economic recession have joined forces to drive postal mail
volumes to record declines. It is within this context that stakeholders are looking for re-
examination of the traditional ways of doing business to ensure financial sustainability
and superior customer service. The purpose of this paper is to examine one of these
traditions: the way the Postal Service operates its delivery and retail functions. More
specifically, this paper addresses the question of whether delivery and retail should be
                               physically and/or managerially decoupled and suggests
   The basic principle of      some implications for such a business direction. Currently,
   decoupling is               the Postal Service generally combines managerial
   managerial autonomy responsibilities for retail and delivery functions. It also
   or independence of          combines physical facilities and staffs for both of these
   retail from delivery.       functions in many locations.

During the course of talking to postal managers, mailers, and other stakeholders, it
became clear that many people directly associated decoupling with the physical
separation of delivery and retail operations. While this could be a logical outcome in
selected situations, the basic principle of decoupling is managerial autonomy or
independence of retail from delivery. Decoupling could occur first organizationally, with
separation of managerial responsibility, and subsequently, it could potentially support
physical separation where it made business sense.


History of Retail and Delivery Operations
Free City Delivery Service began in 1863 in a few cities in the United States by order of
Congress. Window retail service, mail processing, and delivery operations were located
in the same building because, at the time, the scale of operations was small and a
single Post Office in most cities made sense. Even as cities expanded and additional
postal service locations such as stations and branches were opened, delivery and retail
operations continued to reside together. Stations were opened within the city’s limits
some distance from the main Post Office to supplement that city’s postal network.
Branches on the other hand, were opened outside a city’s limits to supplement that
area’s postal services for both delivery and retail. Post Offices, stations, and branches
with co-located delivery and retail operations were generally located near more densely
populated areas where access did not require vehicles. These facilities often existed in
locations that later became costly prime real estate. As the population shifted, especially
after World War II, cities continued to expand and suburbs developed. To serve this
shifting population, the number of branches and stations grew and continued to use the


                                                   1
U.S. Postal Service Office of Inspector General                                              September 22, 2011
Decoupling Could Improve Service and Lower Costs                                               RARC-WP-11-009


model of combining retail and delivery operations in the same facility. As routes
converted from walking to vehicle delivery, these facilities required large parking lots,
which demanded additional space.

In the rural areas of our nation in the 19th century, farmers and other residents traveled
to rural Post Offices to pick up and send their mail. With the advent of Rural Free
Delivery (RFD) in 1896, delivery of mail was extended to rural residents thus eliminating
the need to travel to a Post Office to pick up mail. RFD, along with a population shift
from rural to urban areas, started the rapid reduction in the number of small rural post
offices that took place in the early part of the 20th century. In fact, since the peak of
almost 77,000 Post Offices in 1901, almost 45,000 Post Offices were closed by 1971.

Historically, the Postal Service experimented with various other forms of delivery and
retail operations such as Contract Postal Units (CPUs) and Post Office Express. Since
the 1960s, CPUs have provided postal services as private operators under contract with
the Postal Service. Post Office Express was established in 1995 and is comprised of
retail units located in large chain retail stores and open during store hours, staffed by
postal employees. Additionally, with the advent of shopping centers, the Postal Service
opened a few storefront retail-only operations staffed by postal employees. Recently,
the Postal Service has proposed a new contracted retail model it calls the Village Post
Office.2

The Current Postal Service Delivery and Retail Network Is Expansive

The Postal Service currently operates a network of 32,528 Post Offices, stations and
branches, of which 21,935 (67 percent) house both delivery and retail operations within
the same facility.3 This figure demonstrates that the number of postal facilities currently
combining retail and delivery operations far outnumber those that serve as retail
locations only. The sheer size of this network dwarfs those of both private sector
providers in the United States and those of foreign posts. Therefore, we recognize the
additional challenges of reforming such a large network.




2
  See the Postal Service’s Fact Sheet on Village Post Offices for more information at
http://about.usps.com/news/electronic-press-kits/expandedaccess/assets/pdf/vpo-fact-sheet-110726.pdf.
3
  The Postal Service also has 2,931 Contract Postal Units and 763 Community Post Offices. U.S. Postal Service,
2010 Annual Report, http://about.usps.com/who-we-are/financials/annual-reports/fy2010.pdf, p. 84.


                                                        2
U.S. Postal Service Office of Inspector General                                              September 22, 2011
Decoupling Could Improve Service and Lower Costs                                               RARC-WP-11-009

                       Figure 1: Retail and Delivery versus Retail-Only Facilities




                                                            Retail Only
                                                             Facilities
                                                              10,593
                                                               33%


                                   Retail and Delivery
                                       Facilities
                                          21,935
                                           67%




                 Source: FY 2010 Annual Report and Supplemental Data.



On an average business day, 9 million customers visit a Post Office in America to
purchase postage, mailing services, packaging supplies and to pick up mail. In fiscal
year (FY) 2010, annual “walk-in” retail revenue (not including Commercial Revenue,
Permit or Meter postage) was $17.5 billion.4

To fulfill its mission of providing efficient, reliable delivery of mail, delivery operations
employs 268,405 city and rural letter carriers who deliver mail through a network of
234,001 city and rural routes. The average letter carrier delivers 2,394 pieces of mail to
571 addresses reaching over 150 million delivery points six days per week.

                                        Table 1: Delivery Operations

                       Delivery Operations                                  Number
                       Carriers                                             268,405
                       Mail Routes                                          234,001
                       Addresses Per Carrier                                    571
                       Mail Pieces per week, per Carrier                      2,394
                       Source: 2010 Annual Report and Comprehensive Statement.

The duties of a letter carrier are divided between office time and street time. With the
advent of automated sequencing, typical letter carriers now spend approximately
73 percent of their workday on their routes delivering mail to customers.5

4
  U.S. Postal Service, 2010 Comprehensive Statement on Postal Operations, http://about.usps.com/strategic-
planning/cs10/CSPO__12_2010.pdf, p. 24.
5
  U.S. Postal Service, National Payroll Hours Summary Report, FY 2010, Pay Period 20 (estimate based on In-Office
and Street Time costs).


                                                        3
U.S. Postal Service Office of Inspector General                                                 September 22, 2011
Decoupling Could Improve Service and Lower Costs                                                  RARC-WP-11-009


Delivery and Retail Interdependencies Are Unnecessary in the Long Term

Although co-locating retail and delivery operations in the same facility is common, their
operational co-dependencies are actually few and relatively minor; rather they result
largely from tradition. The major interdependency between retail and delivery operations
that does exist involves shared clerk work hours. Clerks often serve both the retail
window and also engage in back-office tasks such as unloading trucks and distributing
mail to carriers and Post Office Boxes™. On an average day, about one third of a
clerk’s work hours are used to perform “customer facing” duties, such as selling
products and services at the retail window.6 The remaining hours are devoted to “back
office” and administrative functions. These shared work hours seem to exist primarily to
address the lack of flexibility in retail clerk hours. There is no inherent business need to
have retail co-located with delivery. If reasonably increased workforce flexibility is
allowed (by allowing some retail clerks to work a half day, for example), the business
need for coupling could effectively disappear. The recently approved contract with the
American Postal Workers Union (APWU) introduced new scheduling flexibility7 for
career employees that might support this change.

In Shared Facilities, Focus Is on Delivery Operations, Not Retail

Postal Service delivery operations focus on measurements of productivity, cost control,
and service quality. A delivery operation measures its effectiveness and efficiency
through attention to important daily performance data. Examples of key metrics include:
carrier work hours, overtime hours, carrier return from their routes by 5 p.m., percentage
of mail articles scanned correctly, and deliveries per hour.
Along with cost control and service quality measures, retail operations also attempts to
gauge the effectiveness at generating revenue and serving customers. Retail
performance measurements include: walk-in revenue, revenue/cost per transaction,
average transaction time, wait time in line, retail associate’s work/overtime hours, and
adherence to lobby appearance/signage standards.
However, where retail and delivery operations exist in the same facility, the manager of
                                   that facility has the responsibility of managing both
  A clerk’s first priority is      disparate operations. We found such managers
  often back room                  primarily focus on delivery performance and cost
  operational support              control over providing retail service or promoting
  activities — even if that        revenue generation. In fact, their performance
  means a retail customer          evaluations often guide them to focus on meeting
  waits longer in line.            delivery cost and service goals to the exclusion of
retail service or revenue generation goals. Unlike most retail stores in the private sector
where employees are called up from the back office when lines are long to serve the
customer, the focus in Postal Service shared facilities is the exact opposite. A clerk’s

6
  U.S. Postal Service Office of Inspector General, Audit Report – Efficiency of Retail Customer Service Operations,
Report No. MS-AR-10-004, July 28, 2010, www.uspsoig.gov/foia_files/MS-AR-10-004.pdf, p. 6.
7
  Rather than just working five, 8-hour days to reach 40 hours per week, the new contract allows irregular shifts
totaling between 30 and 48 hours per week.


                                                          4
U.S. Postal Service Office of Inspector General                                              September 22, 2011
Decoupling Could Improve Service and Lower Costs                                               RARC-WP-11-009


first priority is often back room operational support activities — even if that means a
retail customer waits longer in line.


A Changing Environment Enhances the Case for Decoupling
The Internet and mail processing technology have dramatically changed the operational
environment and the market conditions facing the Postal Service. Electronic
communications are replacing paper-based communications and changing demand for
retail services, while advances in mail processing technologies are dramatically
affecting the Postal Service’s downstream delivery operations. Given this changing
environment, decoupling enhances the Postal Service’s prospects by encouraging
management and employee focus on retail as well as promoting improved operational
and facility flexibility. This section also notes the costs of inaction and maintaining the
status quo.

Investment in Mail Processing Automation Has Decreased the Need for Delivery
Floor Space and Reduced the Need for Delivery Carriers in Each Office

Adoption of automated sequencing technology8 offers opportunities for significant
savings. Improvements in mail sorting technology upstream at the processing plant
have reduced the need for local sorting in the carrier office. Carriers once spent more
than half of their day manually sorting mail at the local carrier office before delivering it,
but now devote slightly more than two hours per day to this function. In turn, this has
increased delivery “street time” to almost six hours per day.9

With carriers spending less time in the office, more mail can be delivered by each
carrier and there is less need for letter carriers in each facility. With fewer carriers and
the removal of local sorting equipment, there is idle floor space in facilities and less
need for carrier vehicle parking. Such idle space means that delivery operations can be
consolidated and the remaining spaces can be sold off or leases cancelled. For
example, the Postal Service could consolidate two nearby postal facilities into a single
carrier-only facility and relocate it to a lower-cost facility with better connections to
transportation links. This would produce savings by reducing both facility and
transportation costs and by designing a space geared specifically toward efficient
delivery operations. (When making such changes, it is important to note there is a
threshold in distance between the delivery office and recipients beyond which the
savings from delivery consolidation start to decline because carriers would spend too
much time driving to the first delivery point.)




8
  Automation sequencing technologies include Delivery Point Sequencing (DPS) for letters and the Flats Sequencing
System (FSS) for flats.
9
  U.S. Postal Service, National Payroll Hours Summary Report, FY 2010, Pay Period 20 (estimate based on In-Office
and Street Time costs).


                                                        5
U.S. Postal Service Office of Inspector General                                         September 22, 2011
Decoupling Could Improve Service and Lower Costs                                          RARC-WP-11-009


Retail Sales in Post Offices Are Falling and Demand Is Changing Between
Facilities

Retail sales in post offices are falling as customer demand for sending mail weakens
and alternatives grow. Post Office retail transactions are down 20 percent since
FY 2000.10 As recently as 2000, about 79 percent of bills were paid by consumers using
postage stamps, but by 2010 this had fallen to less than 50 percent. Also, use of
alternate channels such as retail stores, usps.com, and CPUs has grown from only
18 percent of retail revenue in 2005 to 31 percent in FY 2010.11 On a positive note,
packages sent by consumers at post offices or left for letter carrier pickup grew by
142 percent between 2005 and 2009, suggesting improved retail prospects in that
area.12

Because the needs of delivery generally dominate in shared facilities, the retail
operation may have limited flexibility to adapt its footprint to changes in customer
demand. By decoupling, retail could be more responsive to different types of demand
across different retail facilities. For example, some locations could benefit from
increased attention to areas such as shipping services or passports that garner very
little business in other locations. Similarly, in some areas, the quality of service can be
improved by expanding hours to meet the needs of a customer base that demands
services after 5 p.m. and on weekends. In some areas, however, there may be
insufficient customer demand to support a brick and mortar retail presence.

Status Quo Is Functional But May Result in Poorer Service and Higher Costs

There were sound reasons in the past for combining delivery and retail operations in the
same facility. These included matching the operational and customer needs of the time
and the convenience of handling items such as parcel pickup at retail offices. There is
now a need to create improved cost efficiencies in delivery operations, generate
increased revenue from existing products, and provide better customer service in retail
operations. Given the magnitude and urgency of the independent challenges facing
delivery and retail, the Postal Service could benefit by re-examining the conventional
wisdom of combining operations. Today, it may be impossible to accomplish such
disparate goals as maximizing operational efficiency and generating maximum revenue
if delivery and retail operations are housed in the same facilities and managed by the
same managers.


Decoupling Offers Benefits and Challenges
Decoupling of the delivery and retail network has the potential benefit of improving
service, increasing revenue, reducing cost, and improving productivity. However, there
are potential challenges as well, particularly in the short term during the transition from
the traditional configuration to a new alignment. There will be some one-time costs
10
   U.S. Postal Service, Retail Data Mart.
11
   Interviews with U.S. Postal Service.
12
   U.S. Postal Service, The Household Diary Study: Mail Use and Attitudes in FY 2009.


                                                        6
U.S. Postal Service Office of Inspector General                                          September 22, 2011
Decoupling Could Improve Service and Lower Costs                                           RARC-WP-11-009


associated with the change and the potential for lapses in customer service quality as
both operations transition to a new paradigm. Some of these benefits and challenges
are discussed in the chart below.



                                 Table 2: Benefits and Challenges of Decoupling

                                          Benefits                               Challenges

Financial                  Long-term lower costs and higher           Initial one-time transition costs.
Implications                revenues.                                   Speed of changes will dictate the
                           Delivery will be able to relocate in        size of transition expenses.
                            lower-cost facilities that provide         Disposal of excess facility space.
                            easier access to transportation and        Potential for increased retail
                            promote efficiency.                         management costs.

Retail                     Supports retail optimization efforts.      Managing transition with
Network                    Facilities are selected and                 customers given the long tradition
Implications                configured to provide desired levels        of coupling.
                            of customer service, convenient            Managing change in a risk-averse
                            access, and enable a wider                  work culture.
                            selection of products and services.

Delivery                   Decoupling is strategically                Addressing clerk work hour
Network                     consistent with efforts to reap cost        flexibility in the short term.
Implications                savings from DPS and FSS13.                Managing the decoupling process
                           Opportunities to realize                    seamlessly.
                            consolidation savings.

Stakeholder                Consumers may applaud more                 Potential personnel relocations.
Implications                products and services and a wider          Need a sustained commitment to
                            set of channels for accessing               formulate and execute a
                            service.                                    comprehensive decoupling
                           Specialization leads to more                strategy.
                            focused training, improved                 Transformation from a sole focus
                            customer service, increased                 on reducing operating expenses to
                            revenue, and lower costs.                   increasing revenue and improving
                           Decoupling has the potential for            customer satisfaction.
                            new marketing and retail                   Need proactive communication
                            opportunities.                              plan for customers.
                           Decoupling has the potential to
                            lower costs and help optimize both
                            retail and delivery networks.



13
     Please refer to footnote 8, above.


                                                        7
U.S. Postal Service Office of Inspector General                          September 22, 2011
Decoupling Could Improve Service and Lower Costs                           RARC-WP-11-009




Private Sector Shippers Offer Valuable Insights
Private sector shipping companies in the United States have established a set of retail
and delivery business best practices that they have found improve customer service,
maximize revenue, and lower costs. It is important to recognize that these practices
evolved over time to meet customer needs and adapt to a changing business climate.

Retail Facilities Are Located Close to Customers and Focus on Service

Historically, companies such as UPS focused on serving large-volume shippers and
little effort was made to accommodate small businesses, much less individual
consumers. These carriers did accept some small business package shipments as long
as they were dropped in stand-alone drop boxes conveniently placed for efficiency
along regular pick-up routes. Potential customers could also travel to the carrier’s
processing hubs, which were generally located in industrial areas far away from
downtown or suburban areas.

Recognizing the emerging needs of small businesses and consumers to ship packages
in the 1980s, a cottage industry of independent “pack and ship” retail stores developed.
These small, independent stores provided packing services and accepted shipments for
UPS, FedEx, and the Postal Service. Eventually, some carriers started to offer
discounts for multiple shipments and individual stores were branded as authorized
shipping centers.

In 2001, UPS recognized the growing small business market and purchased the Mail
Boxes, Etc. “pack and ship” franchise to establish a major retail presence. Mail Boxes,
Etc. was rebranded as the UPS Store in 2003 and continues to grow today. FedEx
                                     responded by purchasing the Kinko’s chain in 2003
   UPS and FedEx retail              to establish its own retail presence. Today, these
   outlets are located in            two channels provide new access and support a
   convenient locations where        growing small office/home office (SOHO) business
   people live, work, and shop. market. UPS and FedEx retail outlets are located in
                                     convenient locations where people live, work, and
                                     shop. They offer expanded hours and respond to
the needs of local customers. Additionally, they offer a diverse line of complementary
products and services that respond to the market. Finally, they open, close, and
relocate their retail presence based on changes in customer demand.

Delivery Facilities Are Located in Low-cost, Industrial Areas with Easy Access to
Transportation Links and Focus on Efficiency

Unlike the Postal Service, which has always been focused on serving every citizen,
major shippers such as UPS started out serving a narrow, high-volume business
clientele. As such, it located its facilities in industrial areas near its core business
customers where real estate costs were low and space was plentiful. These areas also


                                                   8
U.S. Postal Service Office of Inspector General                                           September 22, 2011
Decoupling Could Improve Service and Lower Costs                                            RARC-WP-11-009


supported the efficiency of the processing network by being located conveniently to rail,
air, and highway transportation links. Even as its client base expanded and its retail
presence exploded, it retained and expanded these facilities as the core of its
processing and delivery network. Such focus on speed and efficiency remained
consistent with the goals of delivery even as these locations no longer were appropriate
for serving retail customers as discussed above.


International Posts Also Offer Many Valuable Insights
Our review of the delivery and retail practices of foreign posts shows they have taken
significant steps in decoupling retail and delivery functions. In some cases, decoupling
has been implemented by foreign posts because postal liberalization allowed them to
expand and diversify their products and services. Using the same personnel to operate
retail and back office delivery functions would have been unsustainable and inefficient
given the completely different set of skills they require. This is especially so in light of
the effort required to sell and manage a broader range of products and services.

Overall, the foreign post transitions correlate with a trend toward fewer delivery offices
and retail outlets. The separation of delivery and retail functions facilitated the use of
franchised postal outlets in most countries. Within the European Union (EU), nationwide
access to postal services is a key element of the universal service obligation. This
resulted in regulations on size and sometimes organization of postal outlets (minimum
numbers, density of postal outlets, formal procedures in case of post office closures)
that differ considerably among the EU member states. These factors resulted in
different paces of the transformation. The closure of traditional post offices and their
replacement by franchised outlets was usually controversial and accompanied by public
and political discussions. The degree of public acceptance of franchised postal outlets
varies among the countries.

In the most successful transitions, the postal operators had a fully developed
communication plan to inform customers how the new arrangement would affect them.
Changes required careful planning, but the postal operators addressed potential
concerns with creative approaches and adroitly implemented changes. For example, in
many places, retail post offices still fulfill nominal delivery functions such as parcel
pickup and may serve as locations for post office boxes. We undertook a survey of
European postal operations and conducted a more in-depth review of four major postal
operators.14 The major findings related to retail and delivery decoupling include:

          Separation of the retail function from delivery has become standard practice.
           Different personnel, with different skills and training, operate delivery offices and
           many view their retail operations as separate business units with profit and loss
           accountability.



14
     The summary results are presented as brief case studies in Appendices A through D.


                                                          9
U.S. Postal Service Office of Inspector General                                                September 22, 2011
Decoupling Could Improve Service and Lower Costs                                                 RARC-WP-11-009


        The transition to a decoupled network has been a complex, multiyear process,
         involving coordination with employees, customers, and other key stakeholders in
         planning and implementation.

The Canadian Example May Be Most Relevant to the Postal Service

Because of its history and geographic similarities, Canada’s example may be most
relevant to the United States. Canada Post introduced a new retail strategy in the late
1980s, driven by a need to better serve customers with new locations and longer
opening hours. The transition to a decoupled network took years and involved some
level of trial and error. Due to a lack of funding for new brick and mortar facilities, a
franchising model was partially deployed. Research confirmed that a customer’s trip to
the post office is usually one among several other shopping errands. Installing
franchises within many of Canada’s best retailers made access significantly more
convenient. These retailers contributed retail know-how and expertise, great locations,
and excellent customer interaction skills. As part of the franchise agreement, all had to
be open within a pre-established set of hours that were longer than those of corporate-
owned post offices.

The primary value proposition to host businesses was traffic generation. The income
from the postal outlet was at breakeven or slightly positive, but the gain for the host
business was additional revenue generated by consumers coming to the postal outlet
and making purchases from the host business. It is typical for the postal outlet to be in
the back of the store forcing consumers to pass through aisles of merchandise on the
way to and from the outlet. The franchisee must perform to the requirements outlined in
the agreement, such as meeting merchandising standards, training employees, and
making timely payments.

The selection of franchises and locations followed a disciplined process based on best-
in-class location analysis, including elements such as proximity to other outlets,
                                    population, traffic patterns, location suitability, and
  In Canada, franchises were suitability of the host business. As a result, the
  added to better serve             customer experience improved and revenues grew
  customers, not to replace         steadily. In Canada, franchises were added to better
  corporate outlets.                serve customers, not to replace corporate outlets.
                                    Corporate outlets remained open and were only
removed from the network when revenue was below prescribed thresholds.15 Canadian
retail clerks received mandatory customer service training and management went
through a “Retail Management Basics” training program. In growth areas, franchises
were added to handle the retail need rather than opening new corporate outlets. This
allowed the delivery operation to acquire buildings better suited to their needs and with
easier access to transportation links, often in industrial parks.



15
   This business-based approach is not consistent with current laws governing the U.S. Postal Service, which do not
allow Post Offices to be closed solely for operating at a loss.


                                                         10
U.S. Postal Service Office of Inspector General                              September 22, 2011
Decoupling Could Improve Service and Lower Costs                               RARC-WP-11-009


Recently, Canada Post embarked on an ambitious program called Postal
Transformation. Similar to the Postal Service, delivery carriers are receiving their mail
already delivery sequenced, which reduces their time in office and frees more time for
deliveries. The net result is fewer delivery routes are needed to serve the same number
of delivery addresses. This has opened opportunities to consolidate carrier operations
into fewer facilities. A recent example saw Canada Post combine three older downtown
locations into one modern facility in an industrial park. All of the facilities were in excess
of 50 years old, poorly suited to a delivery operation, with limited dock space, and, in
one case, with a multi floor facility that made moving mail in the building expensive.
After the move, Canada Post sold the buildings with significant financial gains. The new
facility resulted in lower real estate costs and allows the implementation of a new
delivery model that improves letter carrier productivity. The new model could not have
been implemented in the old buildings.


Decoupling Value and Implementation
Our review of stakeholders’ comments, the challenges and benefits, and the
experiences of United States private sector delivery firms and selected foreign posts
suggest the potential value of decoupling far outweighs the costs involved and could be
significant. It is very difficult to estimate the potential value of decoupling to the Postal
Service because of the many ways costs could be cut, service could be improved, and
revenues could be grown. However, it is interesting to note that all four of the foreign
posts we examined noted improvements after decoupling and that Australia Post now
has a separate Retail business unit that reported net profits of almost $80 million in
2010 even though the country is only 1/14th the size of the United States. Beyond that,
the implementation of such a major change requires detailed planning that is far beyond
the scope of this research project. We nonetheless offer some preliminary
implementation insights suggested by our overall findings.

Implementation Strategy for Decoupling Delivery and Retail Operations

Our research suggests the Postal Service can best succeed in its implementation plan
by publicly communicating an objective, positive, and transparent strategy, starting at
the headquarters level. Such a strategic plan can then be evaluated and validated
locally for reasonableness and appropriateness in specific field locations. This feedback
in turn informs the headquarters strategy and creates a continually improving plan. The
continuous feedback loop between headquarters and field offices is generally termed a
“top down, bottom up” approach and has been found to be a best practice for
implementing major efforts in large, geographically dispersed organizations. Such
efforts have been found to help by promoting:

      Flexibility – The approach supports whatever other decisions the Postal Service
       makes regarding retail and delivery.

      Productivity – Decision making is focused on where decoupling opportunities can
       be best identified and evaluated to produce the most cost effective results.


                                                   11
U.S. Postal Service Office of Inspector General                                September 22, 2011
Decoupling Could Improve Service and Lower Costs                                 RARC-WP-11-009


      Superior Customer Experience – The approach helps ensure customers will
       receive delivery and retail services of consistent quality throughout the country
       and that they understand the benefits of such a change in improved service.

Decoupling Enables Expanded Retail Products and Services

A key premise behind decoupling in other places has been that it provides for more
organizational focus and better customer service as well as the skills necessary to
support the sale of a broad array of products and services. Foreign posts and private
sector carriers in the United States have diversified and expanded the portfolio of
products and services offered through their retail outlets to meet the demands of their
customers. For examples of such products, please see Table 3 below. Please note that
many of these items are provided through partnerships with major companies. Also,
many of these items are currently not available to customers through the Postal
Service’s retail network. Should the decision be made to allow the Postal Service to
diversify its offerings, a decoupled retail presence would be required to successfully
implement such an opportunity.

       Table 3: Retail Products and Services of Foreign Posts and Private Sector Shippers

       Service                                          Description

    Financial            Banking services (checking/savings, credit cards, mortgages)
    Services             Insurance services (home, life, auto)
                         Bill payment and digital currency
                         Investment products


    Business             Small and home office centers
    Services             Office and mailing supplies
                         Printing and copying services

    Other                Mobile phones
    Products             Calling cards
                         Broadband services

    Government           Acceptance of tax payments and fines
    Services             Government benefits (pensions, tax refunds, social security)
                         Hunting, fishing, and professional licenses (e.g., plumbing)
                         ID services (Driver licenses, In-person proofing, employment)

    Traditional          Stationery, envelopes, and boxes,
    Products             Greeting cards
                         Philatelic items



                                                   12
U.S. Postal Service Office of Inspector General                             September 22, 2011
Decoupling Could Improve Service and Lower Costs                              RARC-WP-11-009


Conclusions and Suggestions
Our analysis of the benefits and challenges as well as our review of foreign posts and
private sector delivery companies identified the separation of retail and delivery as a
vehicle to improve service, maximize revenue, and minimize costs. Although not without
its challenges, decoupling could have significant value if implemented wisely and in the
appropriate locations. Both delivery and retail operations have important contributions to
make to the long-term viability, financial health, and public service responsibilities of the
Postal Service. An integrated strategy allows both retail and delivery to optimize and
could greatly help the Postal Service as it confronts the myriad of challenges it faces.
We recognize the Postal Service has already made a number of positive steps in this
direction and we suggest they continue in a more strategic and comprehensive manner.
Specifically:

1) We believe the Postal Service could benefit by adopting a strategy of decoupling
   retail and delivery operations in selected urban and suburban areas where it has the
   most potential value. In rural areas where decoupling is generally not practical, the
   Postal Service could develop plans to facilitate collaboration among local
   government(s), business community, and postal officials to explore ways that the
   local assets of the post office could be utilized for the financial, service, social, and
   public policy benefit of all parties.

2) The Postal Service can best implement decoupling by adopting recognized practices
   of working closely with its workforce in planning and implementing such changes
   and in developing plans to thoughtfully communicate such changes to its customers
   and other stakeholders.

The Postal Service Headquarters Retail Group could enhance decoupling by developing
guidelines (perhaps similar to efforts already underway in Delivery) that provide
technical and strategic direction to field locations. Such direction could assist the field
with determining optimum retail locations in an objective, analytical, and transparent
way that improves service and lowers costs. Finally, separate retail and delivery
strategies could be developed that recognize and support both functions in pursuing
their common goal of an efficient Postal Service that provides excellent service at a
minimum cost.




                                                   13
U.S. Postal Service Office of Inspector General         September 22, 2011
Decoupling Could Improve Service and Lower Costs          RARC-WP-11-009




                                        Appendices




                                                   14
U.S. Postal Service Office of Inspector General                              September 22, 2011
Decoupling Could Improve Service and Lower Costs                               RARC-WP-11-009




Appendix A             Case Study 1: Deutsche Post (Germany)




Key country figures (2009)
Population: 82 million
Country size (sq km): 357,002
Population density: 230 inhabitants / sq km
Mail items per inhabitant: 240


   Deutsche Post organizationally separated retail and delivery offices in 1995.
   Date of corporatization: 1995 (Foundation of Deutsche Post AG, Postreform II), went
    public in 2000.

   The letter market was fully opened to competition in 2008. Perceptible competition
    has emerged since 2002. To date, Deutsche Post’s market share is around 90
    percent (in terms of mail items).

   Location factors relevant to postal outlets and for delivery offices are different:

       o Delivery office locations are selected by application of operation research-
         based optimization processes (use of Geographic Information System (GIS)
         technology) in order to minimize real estate, transport and labor costs.
         Important location factors are the distances between delivery routes and
         delivery office and real estate costs (central locations are more expensive
         than locations in the periphery). The reorganization process was
         accompanied by a substantial reduction in delivery routes.

       o Retail postal outlets are to be completely outsourced by the end of 2011.
         Important location factors are accessibility for customers (by foot, car and/or
         local traffic; opening hours), potential demand, and existence of competitors’
         outlets.




                                                   15
U.S. Postal Service Office of Inspector General                           September 22, 2011
Decoupling Could Improve Service and Lower Costs                            RARC-WP-11-009



Appendix B             Case Study 2: Svenska Posten (Sweden)




Key country figures (2009)
Population: 9 million
Country size (sq km): 449,964
Population density: 21 inhabitants / sq km
Mail items per inhabitant: 315


   Retail and delivery offices were organizationally separated in 2001.
   Date of corporatization: 1994 (Foundation of Posten AB), merger with Post Danmark
    in 2009.
   Date of full market opening: 1993. The current market share of competitors
    (essentially City Mail) is around 11 percent in terms of mail items.
   Retail postal outlets for private customers have been outsourced since 2001.

   Ongoing re-organization of sorting and delivery operations is aimed at substantially
    reducing the number of delivery offices and sorting facilities. Important location
    factors are the distances between delivery routes and delivery office and real estate
    costs (central locations are more expensive than locations in the periphery).




                                                   16
U.S. Postal Service Office of Inspector General                           September 22, 2011
Decoupling Could Improve Service and Lower Costs                            RARC-WP-11-009




Appendix C             Case Study 3: Canada Post (Canada)




Canada Key country figures (2009)
Population: 34 million
Country size (sq km): 9,984,670
Population density: 3.4 inhabitants / sq km
Mail items per inhabitant: 323


   Retail and delivery operations started to separate in the late 1980’s to improve
    access for customers. Retail reported to the Sales organization while Delivery
    remained under Operations.
   Canada Post became a crown corporation in October, 1981. Previously it was the
    Department of the Post Office with an operating deficit in excess of $400 million
    (CAD).
   For 2010, Canada Post Corporation (CPC) had profits in excess of $400 million, its
    16th consecutive year of profitability.
   CPC Operates the largest retail network in Canada.
   Urban retail and delivery operate out of separate facilities, but they remain combined
    in rural areas due to cost considerations. In rural areas, such combined facilities
    report to the Regional Operations organization.
   A retail franchise model was implemented placing full service postal outlets within a
    host business (postal outlet within a drugstore, supermarket, etc.).
   The move to franchising retail was made to provide better customer access and
    longer opening hours, to take advantage of locations with high customer traffic, and
    to respond to high new suburban growth.
   Separating of delivery operations enabled more efficient delivery routing, from lower-
    cost facilities better suited for its operations (parking, space, docking, access to
    highways, etc.).
   58 percent of its retail outlets remain corporate-owned and operated. An outlet is
    only closed when revenue falls below a profitability threshold and after going through
    a process involving community and union consultation.
   Separate retail provides the focus on key customer metrics such as customer
    satisfaction, revenue per transaction, and revenue per store as well as consistently
    marketing, branding, and delivering a quality customer experience.
   Franchise stores are more productive in terms of revenue, traffic counts, and cost.


                                                   17
U.S. Postal Service Office of Inspector General                              September 22, 2011
Decoupling Could Improve Service and Lower Costs                               RARC-WP-11-009




Appendix D             Case Study 4: Australia Post (Australia)




Australia Key country figures (2009)
Population: 22 million
Country size (sq km): 7,637,930
Population density: 2.8 inhabitants / sq km
Mail items per inhabitant: 228


   Retail and delivery operations began to separate in 1989 and a separate Retail
    Business Unit was soon established.
   Australia Post operates the largest retail network in Australia.
   Retail operates with profit and loss responsibility. Delivery transfer pricing is in place
    for delivery duties performed by Retail.
   Retail licensing models were adopted in the form of Licensed Postal Outlets,
    Community Postal Agencies and Franchised Outlets.
   The new models provide better access, longer opening hours, locations where
    customers already shop and, where new suburban growth is occurring.
   Delivery operations has the flexibility to locate new delivery stations in more suitable,
    lower cost facilities.
   Separate retail enables focus on key customer metrics such as customer
    satisfaction, revenue per transaction, revenue per store, consistent branding and
    customer experience.
   The Retail Strategic Business Unit produces annual sales of $712 million (AUD) and
    a profit of $78.9 million.
   Principal retail strategies are maximizing return from existing services while pursuing
    new products and services for future growth.




                                                   18
